No. 20-1752
IN THE

Supreme Court of the United States
DEVAR HURD,
v.

Petitioner,

STACEY FREDENBURGH,
Respondent.
CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies that, on August 16,
2021, I caused to be served (i) three paper copies of the accompaning Brief in
Opposition by overnight delivery by commercial carrier in compliance with U.S.
Supreme Court Rule 29.3, and (ii) one portable document format copy by electronic
mail to the addresses listed below:
David M. Shapiro
375 East Chicago Avenue
Chicago, IL 60611
david.shapiro@law.northwestern.edu
312-503-0711
All parties required to be served have been served.
Executed August 16, 2021,
.

/s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

